<html>
<title> - FEDERAL PROTECTIVE SERVICE: ENSURING THE MISSION IS NOT LOST IN TRANSITION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    FEDERAL PROTECTIVE SERVICE: ENSURING THE MISSION IS NOT LOST IN 
                               TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2019

                               __________

                           Serial No. 116-25

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-871 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                              

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                              ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     3
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. L. Eric Patterson, Director, Federal Protective Service 
  (FPS):
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Lori Rectanus, Director, Physical Infrastructure Team, 
  Government Accountability Office:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                                Appendix

Questions for L. Eric Patterson From Chairwoman Xochitl Torres 
  Small..........................................................    35
Question for L. Eric Patterson From Honorable Dina Titus.........    35
Questions for L. Eric Patterson From Chairman Bennie G. Thompson.    35

 
    FEDERAL PROTECTIVE SERVICE: ENSURING THE MISSION IS NOT LOST IN 
                               TRANSITION

                              ----------                              


                         Tuesday, June 11, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Titus, Barragan, 
Crenshaw, Higgins, and Taylor.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order.
    The subcommittee is meeting today to receive testimony on 
the ``Federal Protective Service, Ensuring the Mission is Not 
Lost in Transition.'' We are here today to discuss the plans to 
transition the Federal Protective Service, or FPS, from 
Cybersecurity and Infrastructure Security Agency to the 
Management Directorate of the Department of Homeland Security.
    FPS was formally established by the U.S. General Services 
Administration, GSA, in 1971, with the mission of protecting 
Federal facilities and their occupants. In 2002, when DHS was 
formed, it became the primary Federal department responsible 
for the protection of all buildings, grounds, and property 
owned, occupied, or structured or secured by the Federal 
Government. Consequently, DHS has become the new home for FPS.
    However, since then, FPS has struggled to find the right 
placement within DHS's structure. The first place within U.S. 
ICS, I am sorry, U.S. Immigration and Customs Enforcement, ICE, 
FPS's needs were passed over frequently, as ICE focused on its 
own mission, and failed to dedicate the bandwidth to support 
the mission of FPS. During this time, FPS began supporting 
ICE's mission at the expense of its own. FPS lost personnel, 
going from 1,400-plus personnel to just 1,000.
    The Department reevaluated the placement of FPS in 2009, 
and ultimately moved the agency to the National Protection and 
Programs Directorate. At the time, the rationale for the 
transfer was that, as the agency responsible--as the agency 
responsible for securing the Nation's critical infrastructure, 
NPPD could better provide mission support to FPS. As a result 
of the legislation, in 2018, NPPD was redesignated as a 
Cybersecurity and Infrastructure Security Agency, CISA, to 
reflect its new cybersecurity focus and the Secretary of the 
Homeland Security was authorized to decide the placement of FPS 
within the Department and to begin the transfer.
    Last month, it was announced that FPS would be placed 
within the DHS Management Directorate. Although the Management 
Directorate and FPS are not necessarily mission-similar, I am 
hopeful that the Management Directorate will be a good fit for 
FPS. I am hopeful because FPS must succeed. Nearly 6 years ago, 
and less than 2 miles away from here, 12 people lost their 
lives during the Washington Navy Yard shooting. In 2015, in my 
home State in New Mexico, a Social Security office in 
Albuquerque was the target of a gunman. FPS officers were 
amongst the first responders to both incidents, and to the tens 
of thousands of calls for service at Federal facilities 
annually.
    In order to ensure that we don't have repeats of these 
unfortunate circumstances, we must fully equip and resource 
FPS. That means ensuring that this latest transition, the third 
transition, is successful, that it endeavors to make FPS more 
self-sustaining. I thank both witnesses for being here today, 
and I look forward to their suggestions on how we can help 
facilitate a successful transition for FPS.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                             June 11, 2019
    We are here today to discuss the plans to transition the Federal 
Protective Service, or FPS, from the Cybersecurity and Infrastructure 
Security Agency to the Management Directorate of the Department of 
Homeland Security (DHS).
    FPS was formally established by the U.S. General Services 
Administration (GSA) in 1971 with the mission of protecting Federal 
facilities and their occupants. In 2002, when DHS was formed, it became 
the primary Federal Department responsible for the protection of all 
buildings, grounds, and property owned, occupied, or secured by the 
Federal Government. Consequently, DHS became the new home for FPS.
    However, since then, FPS has struggled to find the right placement 
within DHS's structure. First placed within U.S. Immigration and 
Customs Enforcement (ICE), FPS's needs were passed over frequently as 
ICE focused on its own mission, and failed to dedicate the bandwidth to 
support the mission of FPS. During this time, FPS began supporting 
ICE's mission at the expense of its own. FPS also lost personnel--going 
from 1,400+ personnel to approximately 1,000. The Department re-
evaluated the placement of FPS in 2009 and ultimately moved the agency 
to the National Protection and Programs Directorate (NPPD).
    At the time, the rationale for the transfer was that, as the agency 
responsible for securing the Nation's critical infrastructure, NPPD 
could better provide mission support to FPS. As a result of 
legislation, in 2018 NPPD was redesignated as the Cybersecurity and 
Infrastructure Security Agency (CISA) to reflect its new cybersecurity 
focus, and the Secretary of Homeland Security was authorized to decide 
the placement of FPS within the Department and begin the transfer.
    Last month, it was announced that FPS would be placed within the 
DHS Management Directorate. Although the Management Directorate and FPS 
are not necessarily mission-similar--I am hopeful that the Management 
Directorate will be a good fit for FPS. I am hopeful because FPS must 
succeed.
    Nearly 6 years ago, and less than 2 miles away from here, 12 people 
lost their lives during the Washington Navy Yard shooting. In 2015, in 
my home State of New Mexico, a Social Security Office in Albuquerque 
was the target of a gunman. FPS officers were among the first-
responders to both incidents, and to the tens of thousands of calls for 
service at Federal facilities annually.
    In order to ensure that we don't have repeats of these unfortunate 
circumstances, we must fully equip and resource FPS. That means 
ensuring that this latest transition--the third transition--is 
successful, and that it endeavors to make FPS more self-sustaining. I 
thank both witnesses for being here today, and I look forward to their 
suggestions on how we can help facilitate a successful transition for 
FPS.

    Ms. Torres Small. I now recognize the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Crenshaw, for an 
opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small; and thank 
you for holding this hearing.
    Thank you, witnesses, for being here. I appreciate you and 
your expertise.
    Mr. Patterson, thank you for all your service. I was just 
reading your bio and your long service, both in the Air Force 
and in the--at DIA.
    Ms. Rectanus, thank you so much for being here.
    I am pleased we are holding this hearing to examine the 
transfer of the Federal Protective Service within the 
Department of Homeland Security. As the primary agency 
responsible for the protection of Federal facilities, and the 
individuals that work and visit such facilities, it is 
important that FPS has the support it needs to carry out its 
mission.
    It has been 24 years since the Oklahoma City bombing of the 
Alfred P. Murrah Federal building. That horrific act killed 168 
people, injured 680 others, and destroyed much of the building 
itself. Until the terrorist attack of September 11, 2001, this 
was the deadliest terrorist attack on U.S. soil. As we approach 
the 25th anniversary of this tragedy, we are reminded of the 
important work that the people of FPS do each and every day to 
protect our Federal buildings, and the people who work and 
visit these buildings each day.
    FPS is responsible for the protection of over 9,000 Federal 
facilities. The agency assesses the security of all Federal 
facilities, develops protective measures for the buildings and 
their occupants, conducts K-9 searches for explosives, 
investigates crimes, engages with Federal, State, and local 
partners to share information, and assists DHS for security for 
special events.
    As we review the decision on the best place to house this 
agency, we must keep in mind that these important missions and 
ensure they will not be compromised. The Government 
Accountability Office has reviewed a number of possible 
placements, and the Acting Secretary has decided to place FPS 
within the Department's Management Directorate. As DHS 
transitions FPS for the third time, I am hopeful that FPS will 
finally find the right place to grow and mature as an agency.
    Hopefully being housed in the Management Directorate will 
give FPS the opportunity to correct reported human resource and 
financial issues and focus more clearly on its essential 
mission. I look forward to hearing from our witnesses today on 
how we can best support the mission of FPS.
    I yield back the balance of my time.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of the Honorable Dan Crenshaw
    Thank you, Chairwoman Torres Small. And thank you to our witnesses 
for being here today.
    I am pleased we are holding this hearing today to examine the 
transfer of the Federal Protective Service within the Department of 
Homeland Security.
    As the primary agency responsible for the protection of Federal 
facilities and the individuals that work and visit such facilities, it 
is important that FPS has the support it needs to carry out its 
mission.
    It has been 24 years since the Oklahoma City bombing of the Alfred 
P. Murrah Federal Building. That horrific act killed 168 people, 
injured 680 others and destroyed much of the building itself. Until the 
terrorist attack of September 11, 2001, this was the deadliest 
terrorist attack on U.S. soil.
    As we approach the 25th anniversary of this tragedy, we are 
reminded of the important work that the men and women of FPS do each 
and every day to protect our Federal buildings, and the people who work 
and visit these building each day.
    FPS is responsible for the protection of over 9,000 Federal 
facilities. The agency assesses the security of all Federal facilities; 
develops protective measures for the buildings and their occupants; 
conducts K-9 searches for explosives; investigates crimes; engages with 
Federal, State, and local partners to share information; and assists 
DHS with security for special events.
    As we review the decision on the best place to house this agency, 
we must keep in mind these important missions and ensure they will not 
be compromised.
    The Government Accountability Office has reviewed a number of 
possible placements and the Acting Secretary has decided to place FPS 
within the Department's Management Directorate. As DHS transitions FPS 
for the third time, I am hopeful that FPS will finally find the right 
place to grow and mature as an agency.
    Hopefully being housed in the Management Directorate will give FPS 
the opportunity to correct reported human resource and financial 
management issues and focus more clearly on its essential missions.
    I look forward to hearing from our witnesses today on how we can 
best support the missions of FPS.
    I yield back the balance of my time.

    Ms. Torres Small. The Members of the committee are reminded 
that under the committee rules, opening statements may be 
submitted for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 11, 2019
    History has a way of repeating itself, as nearly 10 years ago we 
were holding a similar hearing on FPS's transfer from U.S. Immigration 
and Customs Enforcement (ICE) to the National Protection and Programs 
Directorate (NPPD). Now today, we are examining yet another plan to 
move the agency within the Department of Homeland Security. This time 
to the Management Directorate.
    While it is a small agency in size, FPS has an enormous mission. 
FPS is charged with protecting approximately 9,000 Federal buildings, 
and the more than 1.4 million personnel, visitors, and customers that 
enter them each day. It works to prevent criminal and terrorist acts 
and other hazards at Federal facilities by assisting tenants with 
writing and implementing facility-specific emergency plans, 
establishing procedures on handling suspicious mail or bomb threats, 
and providing active-shooter and other safety awareness trainings for 
Government personnel.
    In light of this critical role, we must ensure that FPS's 
transition is successful.
    When FPS was transferred to NPPD from ICE, the transition for 5 
mission-support functions was delayed, resulting in increased 
transition costs. Those misson-support functions included: IT services, 
business continuity and emergency preparedness, security integrity and 
personnel security, facilities, and equal employment opportunity. 
Moreover, FPS's move to NPPD did not enable FPS to mature as an agency 
and address shortcomings as was hoped for. FPS continued to wrestle 
with funding constraints, overseeing its large contract force, and 
carrying out its mission in NPPD. NPPD's own transformation into the 
Cybersecurity and Infrastructure Security Agency overshadowed FPS. 
Given that the move to Management will be the third transition that FPS 
undergoes--and the second within DHS--I hope we get it right this time 
around.
    I am pleased that DHS finally made a decision regarding the new 
placement of FPS as I am sure that the angst regarding its landing wore 
on employee morale. I am optimistic that placement in the Management 
Directorate will provide more visibility and opportunity for growth for 
FPS. However, to finally get it right, the Management Directorate and 
FPS must ensure that it properly aligns its activities and resources. 
Further, the Department must commit to addressing FPS' long-standing 
challenges and foster its ability to be more independent.
    Not doing so puts at risk the security of Federal facilities, and 
the millions of people who work in or visit them.

    Ms. Torres Small. So I now welcome the panel of witnesses. 
Our first witness is Mr. L. Eric Patterson, who serves as the 
director of the Federal Protective Service.
    Mr. Patterson has been director of FPS since 2010 and 
previously served as the deputy director of the Defense 
Counterintelligence and Human Intelligence Center at the 
Defense Intelligence Agency. At DIA, he directed 
counterintelligence activities world-wide to meet Department of 
Defense requirements. He is a retired United States Air Force 
Brigadier General with 30 years of service.
    Next, we have Ms. Lori Rectanus, who is the director of the 
Government of Accountability Office's physical infrastructure 
team. Ms. Rectanus is GAO's expert on Federal Real Property 
Management issues, including Federal security. Ms. Rectanus has 
a long and distinguished career at GAO, having joined the 
office in 1984.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Director Patterson.

 STATEMENT OF L. ERIC PATTERSON, DIRECTOR, FEDERAL PROTECTIVE 
                         SERVICE (FPS)

    Mr. Patterson. Good afternoon, Ma'am; and thank you for 
having us today.
    Good afternoon, Chairman Torres Small, Ranking Member 
Crenshaw, and Members of the subcommittee.
    On behalf of the nearly 1,500 men and women of the Federal 
Protective Service, it is an honor to testify today about the 
critical Homeland Security mission they accomplish every day on 
behalf of American citizens. Thank you for this opportunity.
    FPS was established in 1971 as a uniformed protection force 
for General Services Administration. Since its inception, FPS 
has protected people and property of the Federal Government by 
identifying and mitigating vulnerabilities through risk 
assessments, law enforcement, intelligence analysis, and 
security countermeasures. When it comes to our mission, these 
are the fundamental basics. Today, there are over 9,000 FPS-
protected Federal facilities and more than 1.4 million people 
who work, visit, or conduct business at those facilities each 
day.
    A little over a week ago, our Nation laid witness to a 
horrific act when a local government employee conducted a mass 
shooting in a city of Virginia Beach government office. This is 
what the brave men and women of FPS work tirelessly day in and 
day out to prevent.
    Speaking of our personnel, I could not speak more highly of 
our team. The skills, talents, and dedication of our work force 
form the foundation of our success. Our work force is comprised 
of approximately 1,000 law enforcement officers, and more than 
400 mission support staff. Our law enforcement personnel are 
employed throughout the Nation and our Nation's territories. 
They are trained physical security experts and sworn Federal 
law enforcement officers; and despite the daily risk our 
officers encounter, protecting people in Federal facilities, 90 
percent of our officers do not receive Federal law enforcement 
retirement coverage. This has got to change; and I am confident 
it will, as Members of Congress have introduced legislation in 
the past and present to address this important issue.
    Last month, citizens across the United States came together 
to participate in National Police Week, to honor and remember 
our fallen law enforcement officers. In its history, FPS has 
had 6 sworn officers killed in the performance of their duties. 
This serves as a sobering reminder that the women and men of 
FPS must remain vigilant and well-prepared to prevent, protect, 
respond, and recover from events that threaten our Nation's 
people, property, and institutions.
    Through contracts with commercial security vendors, FPS 
utilizes approximately 14,000 contracted Protective Security 
Officers, we term PSOs, to assist in the protection of Federal 
facilities. Our contracted PSOs are often the front line of FPS 
and are in daily contact with our Federal facility, customers, 
and visitors. They, too, put themselves at risk to accomplish 
our mission to include making the ultimate sacrifice. During my 
tenure here at FPS, I have attended the funerals of two of our 
PSOs who were killed, standing their watch.
    Our personnel work around the clock 365 days a year to 
perform our mission. In addition to our daily mission of 
providing law enforcement response and security services to 
over 9,000 Federal facilities and officers, we are involved in 
supporting FEMA in both Hurricane Michael and Hurricane 
Florence; supporting United States Marshal Service in the 
Joaquin ``El Chapo'' Guzman trial; reopening the Immigration 
and Customs office in Portland after demonstrators blocked 
access to the facility; completing nearly 2,000 facility 
security assessments; and conducting over 700 active-shooter 
and active-threat assessment awareness training sessions, and 
over 8,000 explosive detection K-9 team sweeps at Federal 
facilities.
    However, while our core mission remains the same, the way 
we go about performing it is constantly changing. For example, 
the assets we protect are growing more complex and diverse. 
While new technologies enhance our ability to protect, they 
also enhance the abilities of those who seek to do us harm. 
Just last year, FPS existing authorities were enhanced--
extended to counter the evolving threats posed by unmanned 
aerial systems to Federal facilities.
    FPS is a completely non-appropriated entity, and executes 
its mission throughout our Nation and territories, with a 
current total budget authority of $1.6 billion. We derive our 
funding through the collection of fees from our tenant 
customers, the Federal Government, based on a square footage 
model. However, beginning in fiscal year 2020, we are employing 
a risk-based revenue model to better align basic security 
assessments to the security work that FPS performs.
    Finally, I am sure that there will be some questions today 
regarding how the recently-announced move to FPS from the 
Cybersecurity and Infrastructure Security Agency to the DHS 
Management Directorate may impact our mission. I want to say up 
front that this change, which is to be executed by September 
30, will unequivocally not change our operational mission. I am 
here to assure you that the brave men and women of FPS will 
continue to migrate--to mitigate terrorist and criminal actions 
in or around Federal property.
    I have had the great privilege of serving as FPS director 
for nearly a decade. Over the years, FPS has matured 
substantially as an organization and as our men and women 
continue to execute our mission and provide both pride and 
professionalism. The Federal Protective Service remains 
committed to its mission, providing safety, security, and a 
sense of well-being to thousands of Federal employees who work 
and conduct business in our facilities every day.
    I would like, again, to acknowledge and thank the 
distinguished Members of the subcommittee for allowing me to 
opportunity to testify today. I would be pleased to answer any 
questions that you may have.
    [The prepared statement of Mr. Patterson follows:]
                Prepared Statement of L. Eric Patterson
                             June 11, 2019
                              introduction
    Good afternoon Chairwoman Torres Small, Ranking Member Crenshaw, 
and Members of the subcommittee. Thank you for the opportunity to 
testify today on behalf of the U.S. Department of Homeland Security's 
(DHS) Federal Protective Service (FPS) regarding FPS's critical mission 
within DHS.
    In the year 2021, FPS will celebrate its 50th anniversary. Since 
its inception in 1971, FPS has protected people and property in the 
Federal Government by identifying and mitigating vulnerabilities 
through risk assessments, law enforcement, intelligence analysis, and 
security countermeasures.
    Today, we protect over 9,000 facilities and more than 1.4 million 
people who work, visit, or conduct business at these facilities each 
day.
    While our core mission has remained the same, the assets we 
safeguard are growing more complex and diverse. New technologies 
enhance our ability to protect, and they also enhance the abilities of 
those that would do us harm.
    FPS provides the DHS Secretary with a highly-trained, Nation-wide 
force that can support the Department's mission in countering emerging 
or existing threats and terrorism, within the boundaries of our Nation 
and territories.
    Each day, tens of thousands of law enforcement officers, including 
the officers of FPS, risk their lives in protecting and securing this 
great Nation. In recognition of their sacrifices, nearly 1 month ago, 
citizens across the United States came together to participate in 
National Police Week to honor and remember our fallen law enforcement 
officers. In its history, FPS has had 6 sworn officers killed in the 
performance of their duties. This serves as a sobering reminder that 
the women and men of FPS must remain vigilant and well-prepared to 
prevent, protect, respond to and recover from events that threaten our 
Nation's people, property, and institutions.
    In my testimony today, I will highlight for this subcommittee a 
general overview of who we are, what we do, and how we have effectively 
carried out our mission each and every day over the past nearly half-
century.
                              fps overview
    FPS was established in 1971 as the uniformed protection force of 
the General Services Administration (GSA). On March 1, 2003, pursuant 
to the Homeland Security Act of 2002 (6 U.S.C.  101 et. seq), FPS was 
transferred from GSA to DHS in recognition of the role FPS plays in 
securing our homeland. At the time, it was placed within U.S. 
Immigration and Customs Enforcement, but found a more permanent home in 
2009 with the National Protection and Programs Directorate which was 
being established at that time.
    Headquartered in Washington, DC, FPS is organized through three 
Zones and 11 Regions for mission execution.
FPS Workforce
    The skills, talents, and dedication of our workforce form the 
foundation of our success.
    Our workforce of nearly 1,400 Federal personnel is comprised of 
approximately 1,000 law enforcement officers and 400 mission support 
staff. In addition to contract staff augmentation, FPS contracts for 
approximately 14,000 security guards, more appropriately known as 
Protective Security Officers (PSOs).
    Our law enforcement personnel--inspectors, police officers, and 
special agents--are employed throughout the Nation and our Nation's 
territories. They are trained physical security experts and sworn 
Federal law enforcement officers. Our law enforcement personnel perform 
a variety of critical functions, including conducting comprehensive 
security assessments to identify vulnerabilities at Federal facilities, 
developing and implementing protective countermeasures, providing 
uniformed police response and investigative follow-up to crimes and 
threats, and other law enforcement activities in support of our 
mission.
    In addition to FPS's law enforcement officers, FPS also employs 
nearly 400 mission support staff who are responsible for a myriad of 
important tasks within the organization including outreach and 
engagement with critical external stakeholders (e.g. Congress and the 
Federal Executive Boards); human capital management; finance, 
budgeting, and performance; and, law enforcement and security training.
    FPS, through contracts with commercial security vendors, utilizes 
approximately 14,000 PSOs, to assist in the protection of Federal 
facilities. Our contracted PSOs are often the front line of FPS and are 
in daily contact with our Federal facility customers and visitors. They 
too put themselves at risk to accomplish our mission, to include making 
the ultimate sacrifice. During my tenure here at FPS, I have attended 
the funerals of two of our contract PSOs who were killed standing 
watch.
FPS Authorities
    FPS law enforcement personnel derive their law enforcement 
authority and powers from section 1706 of the Homeland Security Act of 
2002, codified in 40 U.S.C.  1315. Pursuant to this authority, the 
Secretary of Homeland Security can designate law enforcement personnel 
for the purposes of protecting property owned or occupied by the 
Federal Government and persons on that property.
    These designated law enforcement personnel have specific 
statutorily-prescribed police powers, to include enforcing Federal laws 
and regulations, carrying firearms, making arrests, conducting 
investigations, and serving warrants and subpoenas issued under the 
authority of the United States.
    Specifically, 1315-designated officers may conduct investigations 
of offenses that may have been committed against either property owned 
or occupied by the Federal Government, or persons on such property, and 
make arrests without a warrant for any offense against the United 
States committed in the presence of the officer or for any felony 
cognizable under the laws of the United States if the officer or agent 
has reasonable grounds to believe that the person to be arrested has 
committed or is committing a felony.
    On February 18, 2005, the U.S. Attorney General approved Guidelines 
for The Exercise of Law Enforcement Authorities By Officers And Agents 
Of the Department of Homeland Security as required in 40 U.S.C.  
1315(f). These approved Guidelines govern the exercise of the law 
enforcement powers of DHS officers designated by the Secretary under 
1315(b)(1).
    Additionally, consistent with 41 C.F.R.  102-85.35, FPS Law 
Enforcement Personnel provide general law enforcement services on GSA 
property, and per 41 C.F.R.  102-74.15, all occupants of facilities 
under the control of Federal agencies must promptly report all crimes 
and suspicious activities to FPS.
    Most recently with the passage of the Preventing Emerging Threats 
Act of 2018, codified at 6 U.S.C. 124n, FPS and its organic statute, 40 
U.S.C.  1315, is an integral part of the Department's development and 
use of security countermeasures for unmanned aircraft systems (UAS) 
that threaten the security of Federal facilities and persons thereon. 
The Department, under the law enforcement and security provisions found 
in 40 U.S.C.  1315, is authorized to use certain UAS countermeasures 
for protection of Federal facilities.
FPS Funding Structure--New Fee Model
    FPS collects fees from Federal departments and agencies in order to 
execute its mission throughout our Nation and territories with a total 
budget authority of $1.6B in fiscal year 2019. We derive our funding 
through the collection of fees from our tenant customers (the Federal 
Government) based on a square-footage model in which we charge $0.78 
per square foot of those facilities we protect and secure and 8 percent 
overhead on PSO and Technical Counter Measure (TCM) contracts.
    However, beginning in fiscal year 2020, FPS is employing a risk-
based revenue model to better align basic security assessments to the 
security work that FPS performs. The new approach employs statistical 
analysis of operational workload data at each building to understand 
the key drivers of FPS's security costs.
    FPS uses the model that the analysis produces to determine the 
basic security assessments for each customer agency. All told, this 
approach offers a more equitable method for assessing basic security 
fees because it reflects FPS's historical security workload data for 
each building.
    Using historical workload data, this new revenue model is security-
oriented whereas the square-footage model represented a rent-based 
approach that did not accurately reflect the law enforcement and 
security work FPS executes daily.
                             fps operations
    Our operations focuses on the integration of security, law 
enforcement, and intelligence to protect the people in an around 
Federal facilities. Our personnel work around the clock, 365 days a 
year. On any given day, you will find FPS personnel:
  <bullet> Conducting security assessments of Federal facilities to 
        identify risks;
  <bullet> Designing, installing, and maintaining security 
        countermeasures to mitigate risks;
  <bullet> Providing a visible law enforcement response and presence;
  <bullet> Overseeing contract security guards who conduct access 
        control and security screening;
  <bullet> Performing background suitability checks for FPS contract 
        employees;
  <bullet> Conducting criminal investigations, including threats to 
        Federal employees and facilities;
  <bullet> Monitoring security alarms via centralized communication 
        hubs;
  <bullet> Integrating and sharing criminal intelligence for risk-
        informed decision making;
  <bullet> Providing security during FEMA Stafford Act deployments, 
        National Special Security Events (NSSEs) and Special Event 
        Activity Rating (SEAR) events;
  <bullet> Leading special operations, including K-9 explosive 
        detection operations; and
  <bullet> Training Federal employees in active-shooter response, crime 
        prevention, and occupant emergency planning.
    2018 was an exceptionally busy year for FPS operations and this 
frequency continues today.
    Below are just a few accomplishments I want to highlight for this 
committee to provide the scope and scale of FPS Operations.
  <bullet> Provided Stafford Act support (via Emergency Support 
        Function-13) to FEMA for Hurricane Michael in Florida and 
        Hurricane Florence in North and South Carolina--including PSO 
        support to FEMA Joint Field Offices and Disaster Recovery 
        Centers;
  <bullet> Provided support to the U.S. Department of Justice and U.S. 
        Marshal's Service (USMS) during the Juan ``El Chapo'' Guzman 
        trial in the Eastern District of New York. FPS has a long-
        standing operational relationship with USMS in that FPS 
        provides perimeter protection to Federal courthouses across the 
        Nation;
  <bullet> Reopened the U.S. Immigration and Customs Enforcement office 
        in Portland, Oregon after demonstrators illegally blocked 
        access to the facility;
  <bullet> Completed nearly 2,000 Facility Security Assessments (FSA), 
        of which nearly 700 of those assessments were the highest-risk 
        facilities, and recommended countermeasures to meet the ISC's 
        baselines level of protection;
  <bullet> Conducted over 700 Active Shooter/Active Threat awareness 
        training sessions to Federal employees; and
  <bullet> Conducted over 8,000 Explosive Detection Canine Team sweeps 
        at Federal facilities.
               fps law enforcement and security training
    Just last month, the Director of the Federal Law Enforcement 
Training Centers (FLETC) testified before this subcommittee regarding 
FLETC's responsibility for training more than 70,000 law enforcement 
officers and agents annually--including that of FPS.
    Our relationship with FLETC today is stronger than ever, and we 
work with FLETC's director and his staff to ensure our law enforcement 
officers are well-prepared, and well-trained to respond to the varied 
and complex threats our Nation's people, property, and institutions 
face regularly.
    To this end, embedded within FPS, is our Training and Professional 
Development Directorate (TPD). The men and women within TPD conduct 
state-of-the-art, timely and professional training to ensure the 
readiness and professional growth of our workforce. They are also 
responsible for training the trainers of our PSO workforce, to ensure a 
consistent high level of proficiency across our contract workforce.
    One of the core courses, which is part of the FPS Inspector Initial 
Hire training at FLETC, is our Physical Security Training Program 
(PSTP). I am very proud to note that this course is one of only a few 
which has been Interagency Security Committee (ISC)-certified, and it 
is a course which other Federal agencies with protective 
responsibilities come to FPS to receive best-in-class training.
                      fps placement and transition
Placement
    On November 16, 2018, President Trump signed into the law the 
Cybersecurity and Infrastructure Security Agency (CISA) Act of 2018 
which renamed and reorganized the National Protection and Programs 
Directorate into CISA.
    In addition, the CISA Act of 2018 authorized the Secretary of 
Homeland Security to re-position FPS elsewhere within the Department 
after the release of a Government Accountability Office's report on 
FPS's organizational placement. The GAO report ultimately recommended 
that the DHS Secretary evaluate placement options for FPS.
    Accordingly, on May 9, 2019, Congress was notified of the Acting 
Secretary's decision to keep FPS within the Department and transition 
the Service from CISA to the Management Directorate by the end of 
fiscal year 2019 (September 30, 2019). FPS's mission remains unchanged 
and we have formed a Working Group with Senior-Level representation 
from FPS along with the Management Directorate and CISA to guide the 
transition planning effort and execution.
    In short, the Acting Secretary's placement decision to keep FPS 
within the Department further underscores just how critical our mission 
is within the Department and to the Nation we serve.
                                closing
    In closing, I have had the great privilege of serving as FPS's 
director for nearly a decade. Over the years, FPS has matured 
substantially as an organization and our men and women continue to 
execute our mission with both pride and professionalism.
    The Federal Protective Service is unwaveringly committed to its 
mission of providing safety, security, and a sense of well-being to 
thousands of Federal employees who work and conduct business in our 
facilities daily.
    I would like to acknowledge and thank the distinguished Members of 
this subcommittee for allowing me the opportunity to testify today.
    I would be pleased to answer any questions you may have.

    Ms. Torres Small. Thank you for your testimony, Mr. 
Patterson.
    I now recognize Ms. Rectanus for--to summarize her 
statement for 5 minutes.

 STATEMENT OF LORI RECTANUS, DIRECTOR, PHYSICAL INFRASTRUCTURE 
             TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Rectanus. Madame Chairwoman Torres Small, Ranking 
Member Crenshaw, and Members of the subcommittee, I am pleased 
to be here today to discuss the Federal Protective Service's 
organizational placement. All of us would agree that FPS is a 
key role in protecting our Nation. Yet throughout multiple 
placements since DHS was formed, FPS has experienced 
operational, management, and funding challenges that have 
affected its performance. While FPS has made significant 
progress in addressing many of its challenges, others persist.
    Because the organizational placement of an organization can 
affect its performance, for our January report, we developed 
various criteria that DHS should consider before making a 
decision to move FPS again. In light of DHS's recent decision 
to place FPS in the Management Directorate, I will focus my 
remarks today on our findings relevant to that decision, as 
well as what DHS should consider as they implement their 
decision.
    Let me first highlight the 5 criteria we believe are key to 
determining an effective organizational placement for FPS. 
These criteria are: Mission, roles and responsibilities, 
organizational culture, information sharing and collaboration, 
and mission support. The premise is that a good organizational 
placement would be a parent organization that offers synergy 
with FPS for these criteria. If there is not synergy, that 
could affect FPS's success, unless any mismatches are 
considered and addressed.
    Using these criteria, we reviewed several placement options 
outside of and within DHS. As a part of those options, we 
assessed making FPS a stand-alone entity, reporting directly to 
the deputy secretary of DHS. While none of the organization 
placement options we reviewed met all the criteria, we found 
that making FPS a stand-alone entity fully met 2 of the 
criteria, namely, mission and organizational culture, and 
partially met the other 3.
    For these 3, this means that, if left unaddressed, such a 
placement could cause FPS to continue to face challenges in 
some areas.
    For example, FPS has some responsibilities, like managing 
the contract guards, that DHS as an entity generally does not 
have. For coordination, FPS works with GSA and many other 
agencies to protect Federal facilities. This is a long-standing 
area that we have commented on. While GSA and FPS recently 
signed an MOA to enhance coordination in this area, we are 
still waiting for an MOA that clarifies the roles of the many 
agencies involved in Federal courthouse protection.
    In the area of mission support, FPS has many of its own 
services, but relies on others as well. For example, for Human 
Capital, FPS relies on NPPD, now CISA's, assistance to fill 
competitive civil services job. It also uses an ICE platform 
for financial management. If FPS became a stand-alone entity, 
DHS would have to decide whether to maintain these 
relationships, or give FPS its own systems.
    We did not assess FPS as a placement within the Management 
Directorate, but these criteria could easily apply to that 
assessment as well.
    If FPS--I am sorry--if DHS decides to move ahead with this 
placement, our prior work offers valuable insights to ensure 
that this move puts FPS in the best position.
    First, DHS should consider, and, more importantly, answer 
questions that are key to a successful implementation, such as 
what are the goals of the consolidation, what are the likely 
costs and benefits, how it would be funded, and how 
stakeholders will be affected.
    Second, DHS should pay attention to key practices to make 
sure the transformation works. Such practices include top 
leadership attention; development of a coherent mission; 
principles and priorities; key time lines and milestones; and, 
of course, a communication strategy that involves employees.
    In conclusion, DHS's decision to place FPS in the 
Management Directorate offers an opportunity to apply these 
criteria in order to try to address some long-standing 
challenges FPS has faced. In implementing this transition, DHS 
will need to pay close attention to these implementation 
practices in order for this placement to help FPS effectively 
carry out its crucial mission.
    Madame Chairman Torres Small, Ranking Member Crenshaw, and 
Members of the subcommittee, this concludes my statement. I 
would be pleased to respond to any questions.
    [The prepared statement of Ms. Rectanus follows:]
                  Prepared Statement of Lori Rectanus
                             June 11, 2019
                             gao highlights
    Highlights of GAO-19-605T, a testimony before the Subcommittee on 
Oversight, Management and Accountability, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    FPS conducts physical security and law enforcement activities for 
about 9,000 Federal facilities and the millions of employees or 
visitors who work in or visit these facilities. Legislation enacted in 
November 2018 required DHS to determine the appropriate placement for 
FPS. The legislation also gave the Secretary of DHS authority to move 
FPS within DHS. In May 2019, DHS announced its decision to place FPS 
within the DHS Management Directorate as a direct report to the Under 
Secretary for Management.
    GAO has reported that FPS faces persistent challenges in meeting 
its mission to protect facilities, and, as of 2019, physical security 
continues to be part of GAO's Federal real property management high-
risk area. For example, FPS has not yet fully implemented its guard 
management system. Thus, FPS is unable to obtain information to assess 
its guards' capability to address physical security risks across its 
portfolio.
    This statement describes considerations for FPS's placement in 
DHS's Management Directorate based upon 5 key organizational placement 
criteria GAO identified, as well as steps to transition FPS based upon 
GAO's prior work on organizational change.
    This testimony is based on reports GAO issued from 2002 through 
2019, particularly, GAO's January 2019 report on FPS's organizational 
placement. Detailed information on the scope and methodology for this 
work can be found in these published products, cited throughout this 
testimony.
federal protective service's organizational placement.--considerations 
                       for transition to the dhs
What GAO Found
    In its January 2019 report, GAO identified five key criteria 
relevant for evaluating placement options for the Federal Protective 
Service (FPS) within the Department of Homeland Security's (DHS) or 
other Federal agencies. (See table.)

KEY CRITERIA FOR EVALUATING PLACEMENT OPTIONS FOR THE FEDERAL PROTECTIVE
                              SERVICE (FPS)
------------------------------------------------------------------------
              Key criteria                         Description
------------------------------------------------------------------------
Misssion, goals, and objectives........  An agency's ability to function
                                          well is dependent upon having
                                          a clear mission, goals, and
                                          objectives.
Responsibilities.......................  In order for an agency to
                                          perform its duties, it needs
                                          to have clear responsibilities
                                          and the capacity to do them.
                                          Agency responsibilities
                                          generally stem from the
                                          objectives outlined in
                                          strategic plans and can take
                                          the form of Memoranda of
                                          Agreement or agency
                                          directives.
Organizational culture.................  Organizational culture includes
                                          the underlying beliefs,
                                          values, attitudes, and
                                          expectations that influence
                                          the behaviors of agency
                                          employees.
Information sharing and coordination...  An agency's ability to share
                                          information related to
                                          National homeland security is
                                          necessary for the protection
                                          of Federal facilities.
                                          Coordination refers to working
                                          with other agencies to provide
                                          this protection.
Mission support........................  Mission support includes
                                          training, financial
                                          management, human capital, and
                                          information technology (IT) to
                                          support the agency in
                                          fulfilling its mission.
------------------------------------------------------------------------
Source: GAO./GAO-19-605T.

    Placing FPS, in the DHS Management Directorate was not an option 
GAO assessed in its January 2019 report. However, GAO did assess the 
option of making FPS a ``stand-alone'' entity reporting directly to the 
deputy secretary of DHS. GAO found that this placement met the first 
criteria (mission, goals, and objectives) and the third criteria 
(organizational culture) but did not completely meet the other 
criteria. For example, FPS had joint responsibility for coordinating 
facility protection with other Federal agencies. DHS did not have joint 
responsibility for coordinating facility protection with FPS. GAO 
recommended DHS fully evaluate placement options for FPS. DHS 
concurred, and officials stated they conducted an assessment. GAO has 
not yet received DHS's assessment of placement options.
    GAO's prior work on implementing an organizational change provides 
valuable insights for making any transition regarding FPS. These 
insights include key questions to consider such as: ``What are the 
goals of the consolidation?'' ``How have stakeholders been involved in 
the decision making?'' In addition, GAO has identified key practices 
for organizational transformation, practices that include ensuring that 
top leadership drives the transformation and establishing a 
communication strategy to create shared expectations, among others. 
These questions and practices could provide insights to DHS and FPS as 
they implement FPS's new placement.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee: I am pleased to be here today to discuss 
considerations related to the Federal Protective Service's (FPS) 
organizational placement. For almost 50 years, FPS has been charged 
with protecting Federal facilities and the millions of employees and 
individuals who work in or visit them. FPS provides physical-security 
and law-enforcement services at about 9,000 facilities, a majority of 
which are held \1\ or leased by the General Services Administration 
(GSA).
---------------------------------------------------------------------------
    \1\ GSA-held facilities are Federally-owned facilities under the 
custody and control of GSA.
---------------------------------------------------------------------------
    The organizational placement of an office or agency can affect its 
performance and ability to meet its mission. Our prior work has found 
that during FPS's previous organizational placements in GSA and two 
agencies within the Department of Homeland Security (DHS), it 
experienced a number of operational, management, and funding 
challenges, which had a bearing on its ability to accomplish its 
mission. Most recently, in January 2019, we reported that FPS had made 
progress in addressing some of these challenges, but others persisted. 
We also identified criteria DHS should consider in evaluating 
organizational placement options for FPS.\2\
---------------------------------------------------------------------------
    \2\ GAO, Federal Protective Service: DHS Should Take Additional 
Steps to Evaluate Organizational Placement, GAO-19-122 (Washington, DC: 
Jan. 8, 2019).
---------------------------------------------------------------------------
    In May 2019, DHS announced its decision to transfer FPS from its 
Cybersecurity and Infrastructure Security Agency (CISA) to its 
Management Directorate, and to report to the Under Secretary for 
Management. We have also previously reported on practices to consider 
in implementing organizational transformations or reorganizations.\3\ 
In light of DHS's decision, this testimony describes: (1) 
Considerations for FPS's placement in DHS's Management Directorate, and 
(2) steps to transition FPS.
---------------------------------------------------------------------------
    \3\ GAO, Results-Oriented Cultures: Implementation Steps to Assist 
Mergers and Organizational Transformations, GAO-03-669 (Washington, DC: 
July 2, 2003) and GAO, Streamlining Government: Questions to Consider 
When Evaluating Proposals to Consolidate Physical Infrastructure and 
Management Functions, GAO-12-542 (Washington, DC: May 23, 2012).
---------------------------------------------------------------------------
    This statement is primarily based on our January 2019 report. For 
that report, we reviewed our 2002 work related to organizational 
transformation, which we conducted prior to the creation of DHS.\4\ 
From this prior work, we identified 5 key criteria for assessing 
potential placement options for FPS and we applied those key criteria 
to 8 agencies that we identified as potential organizational placement 
options for FPS.\5\ For each criterion, we also identified elements 
(i.e., characteristics) that were specific to FPS based on our review 
of FPS documents, our prior work on topics related to the criterion, as 
well as our discussions with Federal officials, an association 
representing Federal law enforcement officers, and a former high-
ranking official in the former National Protection and Programs 
Directorate (NPPD)--now reorganized as CISA--with knowledge of FPS. We 
identified placement options at agencies inside and outside of DHS that 
have similar responsibilities, where FPS was previously placed, or that 
reflected FPS's management preference. We also reviewed our prior work 
on organizational change and Standards for Internal Control in the 
Federal Government for relevant management responsibilities.\6\
---------------------------------------------------------------------------
    \4\ GAO-19-122 and GAO, Homeland Security: Critical Design and 
Implementation Issues, GAO-02-957T (Washington DC: July 17, 2002).
    \5\ GAO-02-957T identified criteria topics that include 4 overall 
purpose and structure questions, and 7 organizational and 
accountability questions. We selected the most relevant questions to 
develop criteria for FPS's organizational placement. The 8 selected 
agencies are the Department of Homeland Security (DHS); U.S. Customs 
and Border Protection; U.S. Immigration and Customs Enforcement (ICE); 
National Protection and Programs Directorate (NPPD); United States 
Secret Service; General Services Administration (GSA); Department of 
Justice (Justice); and the U.S. Marshals Service (Marshals). We assumed 
that FPS would be a stand-alone entity in DHS, GSA, or Justice. At the 
end of GAO's review, in November 2018, NPPD was renamed the 
Cybersecurity and Infrastructure Security Agency (CISA). In its January 
report, GAO referred to this agency as NPPD.
    \6\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, DC: Sept. 10, 2014).
---------------------------------------------------------------------------
    Our January 2019 report includes further details on the scope and 
methodology of our work.
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.\7\
---------------------------------------------------------------------------
    \7\ Detailed information on the scope and methodology of the GAO 
reports cited throughout this testimony can be found in these published 
products.
---------------------------------------------------------------------------
                               background
    While the core mission of protecting Federal facilities has 
remained constant as FPS has moved from one agency to another, its 
responsibilities have changed. In the 1970's, GSA created FPS as part 
of its Public Buildings Service (PBS). While in GSA's PBS, FPS was 
responsible for protecting GSA's held or leased facilities, providing 
both physical security and law enforcement services. To protect 
buildings, FPS officers developed physical security risk assessments, 
installed security equipment, and oversaw contract guard services. As a 
part of its law enforcement services, among other duties, FPS officers 
enforced laws and regulations aimed at protecting Federal facilities 
and the persons in such facilities and conducted criminal 
investigations.
    Following the attacks on September 11, 2001, the Homeland Security 
Act of 2002 \8\ was enacted. It created DHS and moved FPS from GSA to 
the new department, effective in March 2003. Within DHS, FPS was placed 
in U.S. Immigration and Customs Enforcement (ICE), where its 
responsibilities grew beyond solely protecting GSA buildings to include 
homeland security activities such as implementing homeland security 
directives and providing law-enforcement, security, and emergency-
response services during natural disasters and special events.
---------------------------------------------------------------------------
    \8\ Pub. L. No. 107-296, 116 Stat. 2135.
---------------------------------------------------------------------------
    In 2009, DHS proposed transferring FPS from ICE to NPPD. In 
explaining this transfer in DHS's fiscal year 2010 budget justification 
to Congress, DHS stated that having FPS and NPPD's Office of 
Infrastructure Protection in the same organization would further 
solidify NPPD as DHS's lead for critical infrastructure protection.\9\ 
FPS was placed in NPPD and continued to lead physical security and law 
enforcement services at GSA-held or GSA-leased facilities and continued 
its efforts in homeland security activities. In November 2018, 
legislation was enacted that reorganized NPPD to an organization that 
had a greater statutory focus on managing cyber risks and authorized 
the Secretary of Homeland Security to determine the appropriate 
placement for FPS within DHS and begin transfer of FPS to that 
entity.\10\
---------------------------------------------------------------------------
    \9\ Fiscal year 2010 FPS funding was provided as part of the NPPD 
appropriations. See Department of Homeland Security Appropriations Act, 
2010, Pub. L. No. 111-83, 123 Stat. 2142, 2156-57 (2009).
    \10\ Cybersecurity and Infrastructure Security Agency Act of 2018, 
Pub. L. No. 115-278, 132 Stat. 4168.
---------------------------------------------------------------------------
    Throughout FPS's organizational placements in DHS, we have reported 
on persistent challenges it faced in meeting its mission to protect 
facilities. In 2011, we reported on FPS's challenges in transferring 
mission support functions from ICE to NPPD.\11\ While FPS was in NPPD, 
we reported on FPS's challenges related to managing and overseeing 
contract guards and collaborating with GSA and the United States 
Marshals Service (Marshals) on facility security.\12\ We made 
recommendations to help address these challenges and FPS has made 
progress on some of these recommendations. For example, in September 
2018, FPS and GSA established a formal agreement on roles and 
responsibilities related to facility protection, as we recommended. 
However, in our January 2019 report, we identified challenges related 
to other aspects of overseeing contract guards and collaboration with 
other agencies on physical security that had persisted. As of June 
2019, FPS continues to work on establishing a contract guard-management 
system. However, FPS is unable to assess its guards' capabilities 
across its portfolio because the system is not fully implemented nor 
does it interact with its training system. As of 2019, Federal physical 
security continues to be part of our Federal real-property management's 
high-risk area.\13\
---------------------------------------------------------------------------
    \11\ GAO, Federal Protective Service: Progress Made but Improved 
Schedule and Cost Estimate Needed to Complete Transition, GAO-11-554 
(Washington, DC: July 15, 2011).
    \12\ GAO, Federal Protective Service: Actions Needed to Assess Risk 
and Better Manage Contract Guards at Federal Facilities, GAO-12-739 
(Washington, DC: Aug. 10, 2012); Federal Protective Service: Challenges 
with Oversight of Contract Guard Program Still Exist, and Additional 
Management Controls Are Needed, GAO-13-694 (Washington, DC: Sept. 17, 
2013); Homeland Security: FPS and GSA Should Strengthen Collaboration 
to Enhance Facility Security, GAO-16-135 (Washington, DC: Dec. 16, 
2015); DHS Management: Enhanced Oversight Could Better Ensure Programs 
Receiving Fees and Other Collections Use Funds Efficiently, GAO-16-443 
(Washington, DC: July 21, 2016) and Federal Courthouses: Actions Needed 
to Enhance Capital Security Program and Improve Collaboration, GAO-17-
215 (Washington, DC: Feb. 16, 2017). FPS is fully funded by fees 
collected from Federal agencies that use FPS for facility protection.
    \13\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, DC: Mar. 
6, 2019).
---------------------------------------------------------------------------
Key Criteria for Evaluating Placement Options
    In 2002, we reported on organizational and accountability criteria 
for establishing DHS. From this prior work, we identified key criteria 
that are relevant to assessing potential placement options for FPS, as 
shown in table 1.\14\
---------------------------------------------------------------------------
    \14\ GAO-02-957T. As described above, we selected criteria that 
were most relevant to FPS's organizational placement. See GAO-19-122 
for more information.

 TABLE 1.--KEY CRITERIA FOR EVALUATING PLACEMENT OPTIONS FOR THE FEDERAL
                        PROTECTIVE SERVICE (FPS)
------------------------------------------------------------------------
           Key Criteria                          Description
------------------------------------------------------------------------
Mission, goals, and objectives....  An agency's ability to function well
                                     is dependent upon having a clear
                                     mission, goals, and objectives. In
                                     that respect, similarities in
                                     agency mission, goals, and
                                     objectives between FPS and any
                                     other organization could affect the
                                     extent to which FPS's missions and
                                     goals are carried out effectively.
                                     Agency strategic plans describe the
                                     mission, goals, and objectives
                                     covering the major functions and
                                     operations of an agency.
Responsibilities..................  In order for an agency to perform
                                     its duties, it needs to have clear
                                     responsibilities and the capacity
                                     to do them. As a result,
                                     similarities in responsibilities
                                     between FPS and any other
                                     organization could affect the
                                     extent to which FPS's
                                     responsibilities are prioritized.
                                     Agency responsibilities generally
                                     stem from the objectives outlined
                                     in strategic plans and can take the
                                     form of Memorandums of Agreement or
                                     agency directives.
Organizational culture............  Having a cohesive culture is
                                     critical to organizational success.
                                     Organizational culture includes the
                                     underlying beliefs, values,
                                     attitudes, and expectations that
                                     influence the behaviors of agency
                                     employees. Similarities in
                                     organizational cultures between FPS
                                     an any other organization could
                                     facilitate FPS's ability to meld
                                     and operate in another agency.
Information sharing and             An agency's ability to share
 coordination.                       information is critical to its
                                     successful operation. This
                                     criterion includes sharing
                                     information related to National
                                     homeland security and necessary for
                                     the protection of Federal
                                     facilities. Coordination refers to
                                     working with other agencies to
                                     provide this protection.
                                     Similarities between FPS and any
                                     other organization in information
                                     sharing and coordination could help
                                     ensure that FPS obtains the
                                     information it needs to perform its
                                     mission and activities.
Mission support...................  An agency requires effective mission
                                     support in order to carry out its
                                     duties. Mission support includes
                                     training, financial management,
                                     human capital, and information
                                     technology (IT) to support the
                                     agency in fulfilling its mission.
                                     The mission support made available
                                     to FPS by any organizational
                                     placement may affect FPS's
                                     operations.
------------------------------------------------------------------------
Source: GAO./GAO-19-605T.

   considerations for fps's placement in dhs's management directorate
    For our January 2019 report, we applied these key criteria for 
evaluating organizational placement to 8 agencies that could be 
potential placement options for FPS. We found that none of the selected 
agencies met all the organizational placement criteria; thus, any of 
the organizational placement options could result in both benefits and 
trade-offs. In instances where placing FPS within DHS met our criteria 
(that is, instances where DHS was similar to FPS), FPS could experience 
benefits. In those instances where the criteria were not met, we 
reported it would be incumbent upon any agency to consider and address 
any potential tradeoffs in order to ensure the decision was successful.
    We reviewed FPS as a ``stand-alone'' entity reporting directly to 
the Deputy Secretary of DHS and found this placement option met several 
key criteria. Table 2 below summarizes our analysis.

  TABLE 2.--COMPARISON OF THE DEPARTMENT OF HOMELAND SECURITY (DHS) AND
 THE FEDERAL PROTECTIVE SERVICE (FPS) IN KEY CRITERIA FOR ORGANIZATIONAL
                                PLACEMENT
------------------------------------------------------------------------
                                 FPS as a Stand-alone
         Key Criteria                Agency in DHS      Met/Did not Meet
------------------------------------------------------------------------
Mission, goals, and objectives  DHS is similar to FPS   Met.
                                 in that their mission
                                 statements and goals
                                 include an explicit
                                 focus on the
                                 protection of
                                 infrastructure or
                                 specific facilities.
Responsibilities..............  Facility protection     Met.
                                 responsibilities:
                                 Similar to FPS, DHS
                                 has facility
                                 protection
                                 responsibilities.
                                Physical security and   Met.
                                 law enforcement
                                 activities: DHS is
                                 similar to FPS
                                 because it performs
                                 both physical
                                 security and law
                                 enforcement
                                 activities.
                                Contract guard          Did not meet.
                                 responsibilities: FPS
                                 employs and oversees
                                 a large number of
                                 contract guards. DHS
                                 only uses a limited
                                 number of contract
                                 guards.
Organizational culture........  DHS has a similar       Met.
                                 culture to FPS in
                                 that it is a law
                                 enforcement agency.
Information sharing and         Information sharing:    Met.
 coordination.                   DHS, like FPS, has
                                 access to and can
                                 share information
                                 related to National
                                 homeland security.
                                Coordination of         Did not meet.
                                 activities: FPS and
                                 GSA have joint
                                 responsibility for
                                 protecting
                                 facilities, and FPS,
                                 GSA, and the U.S.
                                 Marshals have joint
                                 responsibility for
                                 protecting
                                 courthouses. DHS does
                                 not have joint
                                 responsibility for
                                 coordinating facility
                                 protection with FPS.
Mission support...............  Financial management:   Did not meet.
                                 FPS collects monies
                                 from other Federal
                                 agencies to support
                                 its operations. DHS
                                 does not collect fees
                                 from other Federal
                                 agencies to support
                                 its operation.
                                Human capital: DHS has  Met.
                                 the authority to fill
                                 competitive service
                                 jobs that could
                                 support FPS needs.
                                Information             Met.
                                 technology--financial
                                 management systems:
                                 FPS owns many of its
                                 operational and
                                 business-related IT
                                 systems and
                                 applications but does
                                 not own some systems,
                                 such as a financial
                                 management system.
                                 DHS has financial
                                 management systems
                                 that can support FPS.
                                Law enforcement         Met.
                                 training: FPS has
                                 access to DHS's
                                 Federal Law
                                 Enforcement Training
                                 Centers for law
                                 enforcement training.
------------------------------------------------------------------------
Source: GAO./GAO-19-605T.
Notes: For the purposes of our comparison of DHS to FPS, we assumed that
  FPS was independent of DHS.

    For the first four criteria--(1) Mission, goals, and objectives; 
(2) responsibilities; (3) organizational culture; and (4) information 
sharing and coordination--we determined that DHS met the criteria if 
the agency or its subcomponents had any similarities to FPS. For the 
last criterion--mission support--we determined that DHS met the 
criterion if the agency or its subcomponents had similarities to FPS or 
could provide FPS-needed mission support.
    Mission, Goals, and Objectives.--In January 2019, we reported that 
FPS's mission focused on the protection of Federal facilities and the 
people working in and visiting those facilities. DHS was similar to FPS 
in that its mission statement and goals as stated in its strategic plan 
include an explicit focus on the protection of infrastructure or 
specific facilities. Our prior work found that placing an agency into 
an organization that has a similar mission might help ensure that the 
agency's mission receives adequate funding, attention, visibility, and 
support.\15\ Our January 2019 work reported that one of DHS's goals--as 
noted in its strategic plan covering fiscal years 2014 to 2018--was to 
reduce risk to the Nation's critical infrastructure. DHS and FPS share 
objectives that focus on mitigating risks and responding to incidents.
---------------------------------------------------------------------------
    \15\ GAO-02-957T.
---------------------------------------------------------------------------
    Responsibilities.--In January 2019, we reported that FPS has 
facility-protection and physical-security responsibilities and law-
enforcement, and contract-guard oversight responsibilities. DHS was 
similar to FPS as it had responsibilities for physical security and 
performed law enforcement functions. As a part of its physical security 
activities, FPS conducted facility security assessments,\16\ identified 
countermeasures (e.g., equipment and contract guards) best suited to 
secure a facility, and oversaw contract guards. As a part of its law 
enforcement activities, FPS proactively patrolled facilities, responded 
to incidents, and conducted criminal investigations. FPS also provided 
additional operational law enforcement support, at the direction of the 
Secretary of Homeland Security, to address emerging threats and 
homeland security incidents. One of FPS's most critical activities was 
overseeing about 13,500 contract guards who were posted at Federal 
facilities and were responsible for controlling access to facilities, 
responding to emergency situations involving facility safety and 
security, and performing other duties. FPS was responsible for 
ensuring, among other things, that these guards are performing their 
assigned duties and have the necessary training and certifications. 
DHS, however, only used a limited number of contract guards and 
therefore had less responsibility. At the time of our review, DHS 
officials told us they procured about 130 guards.
---------------------------------------------------------------------------
    \16\ These assessments consist of identifying and assessing threats 
and vulnerabilities of a facility.
---------------------------------------------------------------------------
    Organizational Culture.--In January 2019, we reported that while 
there are many areas relevant to organizational culture, law 
enforcement was a key aspect of FPS's organizational culture, according 
to officials we interviewed from an association of security companies 
and a former, high-ranking official in NPPD. DHS had a similar culture 
in that it was a law enforcement agency.
    Information Sharing and Coordination.--In January 2019, we reported 
that Component Intelligence Programs (CIP) were organizations in DHS 
that collected, gathered, processed, analyzed, produced, or 
disseminated information related to National homeland security. In 
2016, DHS designated a division within FPS as a CIP, a move that 
allowed FPS more access to information on threats other DHS agencies 
have identified and actions they plan to take. While DHS, like FPS, had 
access to and could share information related to National homeland 
security, DHS did not have joint responsibility for coordinating 
facility protection with FPS. Rather, FPS shared this responsibility 
with GSA, and these two agencies and Marshals had joint responsibility 
for protecting courthouses. FPS has faced challenges with coordinating 
with these agencies in the past. For example, in September 2011, we 
reported that FPS, Marshals, and other agencies involved in protecting 
courthouses (i.e., GSA and the Administrative Office of the U.S. 
Courts) faced challenges related to coordination, such as in the 
implementation of roles and responsibilities and the use or 
participation in existing collaboration mechanisms.\17\
---------------------------------------------------------------------------
    \17\ We recommended that these entities address these issues by 
updating a memorandum of agreement that, among other things, clarifies 
roles and responsibilities. GAO, Federal Courthouses: Improved 
Collaboration Needed to Meet Demands of a Complex Security Environment, 
GAO-11-857 (Washington, DC: Sept. 28, 2011). An updated memorandum was 
drafted but had yet to be signed by all parties.
---------------------------------------------------------------------------
    Mission Support.--In January 2019, we reported that mission support 
was comprised of financial management, human capital, information 
technology systems for financial management, and law enforcement 
training. FPS owned and used many of the key operational and business-
related information technology (IT) systems and applications it needs 
to carry out its mission. However, FPS received some mission support 
services from other agencies in DHS, such as human capital and some 
aspects of information technology. We found that if FPS changed its 
organizational placement it would need mission support in these areas. 
For example, FPS did not have delegated examining authority to allow it 
to fill competitive civil service jobs and relied on NPPD to provide 
this service.\18\ DHS had the authority to fill competitive service 
jobs that could support FPS needs. Further, FPS used a financial 
management IT system owned by ICE. DHS could provide FPS access to 
financial management systems that can support FPS. Finally, FPS offered 
its own training courses and would still need access to DHS's Federal 
Law Enforcement Training Centers.
---------------------------------------------------------------------------
    \18\ Delegated examining authority is an authority that allows 
Federal Executive branch agencies to fill competitive civil service 
jobs through a delegation from the Office of Personnel Management. 
Agencies with this authority fill the civil service jobs by performing 
activities such as recruiting and hiring.
---------------------------------------------------------------------------
    In our January 2019 report, we did not assess FPS as a placement 
within DHS's Management Directorate.\19\ Further, we recommended DHS: 
(1) Identify the specific goals of a change in FPS's placement--that 
is, what DHS expects to achieve by moving FPS to another agency, and 
(2) fully evaluate placement options for FPS based on what DHS expects 
to achieve by changing FPS's placement, an assessment of FPS's current 
placement, and other best practices such as an analysis of alternatives 
assessing the benefits and tradeoffs. DHS agreed with our 
recommendations. In May 2019, FPS officials told us that the Acting 
Secretary's decision to place FPS within the Management Directorate was 
based upon an assessment of placement options within DHS using criteria 
and analyzing the tradeoffs. GAO has not yet received DHS's assessment 
of placement options. We will assess the actions DHS has taken in 
response to our recommendations when we receive DHS's assessment.
---------------------------------------------------------------------------
    \19\ DHS's Management Directorate ensures that the Department's 
over 240,000 employees have well-defined responsibilities and that 
managers and their employees have efficient means of communicating with 
one another, with other Governmental and non-Governmental bodies, and 
with the public they serve. The Management Directorate is responsible 
for budget, appropriations, expenditure of funds, accounting and 
finance; procurement; human resources and personnel; information 
technology systems; biometric identification services; facilities, 
property, equipment, and other material resources; and identification 
and tracking of performance measurements relating to the 
responsibilities of the Department.
---------------------------------------------------------------------------
                        steps to transition fps
    Our prior work offers valuable insights for agencies to consider 
when evaluating or implementing a reorganization or transformation, and 
can provide insights for making any transition regarding FPS. These 
include considering: (1) Key questions for consolidations and (2) 
leading practices when implementing an organizational change.
    Two sets of considerations for organizational transformations 
provide insights for making any FPS organizational placement. First, in 
May 2012, we reported on key questions for agency officials to consider 
when evaluating and implementing an organizational change that involves 
consolidation.\20\ Table 3 provides a summary of these key questions. 
Answering these questions would help provide FPS with assurance that 
important aspects of effective organizational change are addressed.
---------------------------------------------------------------------------
    \20\ GAO-12-542.
---------------------------------------------------------------------------

 TABLE 3.--KEY QUESTIONS TO CONSIDER WHEN EVALUATING AND IMPLEMENTING 
                             CONSOLIDATION

Key Questions
  <bullet> What are the goals of the consolidation? What opportunities 
        will be addressed through the consolidation and what problems 
        will be solved? What problems, if any, will be created?
  <bullet> What will be the likely costs and benefits of the 
        consolidation? Are sufficiently reliable data available to 
        support a business-case analysis or cost-benefit analysis?
  <bullet> How can the up-front costs associated with the consolidation 
        be funded?
  <bullet> Who are the consolidation's stakeholders, and how will they 
        be affected? How have the stakeholders been involved in the 
        decision, and how have their views been considered? On balance, 
        do stakeholders understand the rationale for consolidation?
  <bullet> To what extent do plans show that change management 
        practices will be used to implement the consolidation?
Source: GAO./GAO-19-605T

    Second, we reported in July 2003 on key practices and 
implementation steps for mergers and organizational 
transformations.\21\ The practices we noted are intended to help 
agencies transform their cultures so that they can be more results-
oriented, customer-focused, and collaborative in nature (see table 4).
---------------------------------------------------------------------------
    \21\ GAO-03-669.

    TABLE 4.--KEY PRACTICES AND IMPLEMENTATION STEPS FOR MERGERS AND
                     ORGANIZATIONAL TRANSFORMATIONS
------------------------------------------------------------------------
             Key Practices                     Implementation Step
------------------------------------------------------------------------
Ensure top leadership drives the         -Define and articulate a
 transformation.                          succinct and compelling reason
                                          for change.
                                         -Balance continued delivery of
                                          services with merger and
                                          transformation activities.
Establish a coherent mission and         -Adopt leading practices for
 integrated strategic goals to guide      results-oriented strategic
 the transformation.                      planning and reporting.
Focus on a key set of principles and     -Embed core values in every
 priorities at the outset of the          aspect of the organization to
 transformation.                          reinforce the new culture.
Set implementation goals and a time      -Make public implementation
 line to build momentum and show          goals and time line.
 progress from Day 1.                    -Seek and monitor employee
                                          attitudes and take appropriate
                                          follow-up actions.
                                         -Identify cultural features of
                                          merging organizations to
                                          increase understanding of
                                          former work environments.
                                         -Attract and retain key talent.
                                         -Establish an organization-wide
                                          knowledge and skills inventory
                                          to exchange knowledge among
                                          merging organizations.
Dedicate an implementation team to       -Establish networks to support
 manage the transformation process.       implementation team.
                                         -Select high-performing team
                                          members.
Use the performance management system    -Adopt leading practices to
 to define responsibility and assure      implement effective
 accountability for change.               performance management systems
                                          with adequate safeguards.
Establish a communication strategy to    -Communicate early and often to
 create shared expectations and report    build trust.
 related progress.                       -Ensure consistency of message.
                                         -Encourage two-way
                                          communication.
                                         -Provide information to meet
                                          specific needs of employees.
Involve employees to obtain their ideas  -Use employee teams.
 and gain their ownership for the        -Involve employees in planning
 transformation.                          and sharing performance
                                          information.
                                         -Incorporate employee feedback
                                          into new policies and
                                          procedures.
                                         -Delegate authority to
                                          appropriate organizational
                                          levels.
Build a world-class organization.......  -Adopt leading practices to
                                          build a world-class
                                          organization.
------------------------------------------------------------------------
Source: GAO./GAO-16-605T

    In summary, the questions and practices for organizational change 
that we previously identified could provide insights to DHS and FPS for 
any transition.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee, this concludes my prepared statement. I would be 
pleased to respond to any questions that you may have at this time.

    Ms. Torres Small. I thank the witnesses for their 
testimony, and I will remind each Member that he or she will 
have 5 minutes to question the panel.
    I will now recognize myself for questions.
    A transition plan was required 30 days after notification 
of the Secretary's decision regarding FPS's placement, and June 
8 marks that 30 days, but the Department has not provided a 
plan to Congress.
    Mr. Patterson, do you know if the plan has been completed, 
and when we can expect to see it?
    Mr. Patterson. Yes, ma'am. The plan has been completed, and 
I know it has been signed by the acting deputy secretary. I am 
not exactly sure when it will be rendered to you, but we can 
find out.
    Ms. Torres Small. Thank you, Director Patterson.
    As we discussed, FPS is undergoing its third transition. 
Director Patterson, if you could, quickly, speak to the pros 
and cons of placing FPS within Management Directorate at DHS 
and how you anticipate this transition to be more successful 
than previous ones.
    Mr. Patterson. Yes. Well, I wasn't part of the previous 
transitions; but I can speak to what I think are clearly the 
benefits of moving to management.
    Clearly, as I had stated in my opening remarks, from an 
operational perspective, there won't be any impact on our 
mission operationally. We will continue to move forward 
operationally.
    Where we will, I think, gain synergy is in the areas of our 
lines of business. One of the areas where the GAO has commented 
on before and in others, in the IG, they have commented that we 
have not had a strong bench as it relates to our human 
resources program, our financial management program, and I 
think management will give us the opportunity to strengthen 
those lines of business. So, I look at this as a plus.
    Ms. Torres Small. I appreciate you recognizing those 
opportunities for development, because one of the other 
considerations was having FPS work as a stand-alone agency.
    Can you elaborate on what it would take for FPS to become a 
stand-alone agency and how long you think it would take?
    Mr. Patterson. Well, I think if that had been the Acting 
Secretary's decision to make us a stand-alone at this point, 
then I think we could have. We could have done that with no 
problem. I think, again, we would have to work with management 
and others to look at how we would augment some of the 
authority that I would lack relative to certain approvals that 
would be required as we do our jobs.
    For instance, in order to--for hiring and for certain 
financial management processes, the Secretary or the Department 
has certain authority that would have to be rendered to me in 
order to make certain decisions. If they were not willing to do 
that immediately, then we would have to find ways of 
accomplishing that but; once again, from an operational 
perspective, there would be no problem.
    Ms. Torres Small. Mr. Patterson, is there--are there 
opportunities that you see for the Management Directorate to 
provide more of an opportunity to mature and to develop some of 
those capabilities?
    Mr. Patterson. Yes, ma'am, I do. I think that is kind-of 
the seed of where all the larger decisions within the 
Department are made. It gives us an opportunity--it gives a 
small agency like the Federal Protective Service an opportunity 
to view how the decisions within the Department are made, and 
gives us an opportunity to understand how to better leverage 
our folks and what we need in order to make better decisions as 
it relates to human resources and financial management.
    Ms. Torres Small. Director Rectanus, do you have anything 
to add there?
    Mr. Patterson. No. Thank you.
    Ms. Torres Small. Thank you.
    Ms. Rectanus. Yes, I would agree with director's assessment 
that when we applied our 5 criteria, again, we did not do it to 
the Management Directorate; but when we look at the roles of 
the Management Directorate, certainly they offer opportunities 
for support in the mission area in terms of Human Capital 
procurements, financial management.
    However, those are also some of the areas that GAO has 
identified that DHS, in general, is struggling with in terms of 
their major management challenges.
    So, again, we haven't seen the assessment or their 
transition plan. I would hope in working through this, they 
would recognize those challenges that DHS has, and make sure 
that any challenges DHS faces does not adversely affect FPS.
    I think I would also add, important for us are those other 
criteria. Now, we found, as I said in our report, no 
organization might meet all 5 criteria; but obviously, mission 
is a key one, organizational culture, roles, responsibilities.
    So, we would look forward to seeing DHS's plan, given that 
the Management Directorate is a little different than FPS in 
terms of what its mission and roles and responsibilities are. 
We would really look forward to seeing how DHS wants to find 
synergy in those areas as well.
    Ms. Torres Small. Mr. Patterson, in the last brief moments, 
can you just speak to the fact that 90 percent--you mention 
that 90 percent of the officers do not receive Federal law 
enforcement benefits. Has that impacted your recruitment and 
retention?
    Mr. Patterson. Yes, it does, very much so.
    Ms. Torres Small. Thank you.
    Mr. Patterson. We have a----
    Ms. Torres Small. I apologize. That is all I had time for. 
So, I will cut myself off now.
    Thank you. All right. Thank you very much.
    Now I recognize the gentleman from Texas, Ranking Member 
Crenshaw, for any questions.
    Mr. Crenshaw. Thank you, Madame Chairwoman. I will keep the 
line of questioning along the same lines of we just want to 
make sure that this is going to be the right fit, and it was 
the right decision made under the right auspices, and I will 
try not to repeat some of the good questions that the 
Chairwoman had.
    Director Patterson, for all of us to understand the 
tradeoffs involved, can you share with us whether there would 
be any advantage to keeping FPS under CISA, given its 
infrastructure security component?
    Mr. Patterson. At this time I don't think there would be, 
given that the primary focus now of CISA is on the 
cybersecurity side, and so we--I think we have lost a little 
bit of synergy in that regard if we were to stay with CISA. 
But, again, you know, it clearly could be an option.
    Mr. Crenshaw. I want to piggyback off of the previous 
question about becoming a stand-alone agency. What exactly 
prevents you from becoming a stand-alone department within the 
agency--entity within the Department of Homeland Security?
    Mr. Patterson. So I don't know that anything really 
prevents us. I think it is--it is a decision that will be made 
by the Acting Secretary, whether that would be--if we would be 
a separate component within the Department or not. So, I don't 
know that there is anything that precludes it.
    Mr. Crenshaw. OK. So then would the move to the Management 
Directorate be considered a long-term solution then? Is it a 
stepping stone to becoming a singular entity?
    Mr. Patterson. I think it could be either. I think it could 
be a stepping stone, or it could be a long-term solution. I 
think that is one of the things----
    Mr. Crenshaw. Is there some intent there? Have those 
discussions happened at all?
    Mr. Patterson. We have had very few discussions at this 
point, sir. What we are trying to do is, now the decision has 
been made, we will now go into the more serious discussions 
about what that might look like.
    Mr. Crenshaw. OK.
    Mr. Patterson. Yes, sir.
    Mr. Crenshaw. Ms. Rectanus, in the GAO report, it states, 
``DHS has not taken key steps to fully assess potential 
placement options.'' Can you briefly discuss what you all mean 
by that, and what additional steps DHS should have taken to 
assess the placement?
    Ms. Rectanus. At the time of our review, DHS had just 
started to put together a working group in response to the 
legislative requirement to think about a good place for FPS. At 
that time, they had put together a charter, but we thought it 
was a good first step, but certain things they had not done at 
that time, which we felt would be needed, first of all, to 
sort-of assess what would be the reason to move it in the first 
place, and whether, in fact, NPPD was working or not.
    We have actually seen a lot of progress from FPS in the 
time it has been in NPPD. We also felt that they should better 
clarify what would be the goals of moving, what would be the 
cost and benefit, who would pay for those, and sort-of what 
would be the reason to move, do some analysis of alternatives. 
Those are the sorts of things that we actually recommended that 
DHS do before it decides where to put FPS.
    Mr. Crenshaw. OK. As far as the movement to the Management 
Directorate, given the GAO's report, you didn't analyze 
specifically going to the Management Directorate; but you have 
mentioned throughout this testimony, you all don't seem to have 
a huge problem with it. Would that be accurate to say?
    Ms. Rectanus. I think, again, we haven't seen their 
analysis. We would hope that in making that decision, they 
would have applied the criteria that we identified, as well as 
identified, you know, if there was a reason to move, what would 
be the goal of moving it to the Directorate. Again, for our 5 
criteria, how would they try to make the best decision so that 
those key criteria, if they are not automatically met, what 
would they be doing to make sure that FPS could carry out its 
mission and roles and responsibilities, particularly in light 
of the some of the challenges that they have been dealing with 
for the last decade or so.
    Mr. Crenshaw. Director Patterson, I understand FPS has used 
that time as part of disaster response. How will the transition 
affect FPS's capability in assisting in disaster response?
    Mr. Patterson. I don't think it will have an impact.
    Once again, sir, operationally, we will continue to 
function as we have; and I think that what the transition to 
management will, quite frankly, give us some better insight and 
understanding of what may be more necessary in areas than 
others.
    Mr. Crenshaw. There was an earlier GAO report that talked 
about the lack of firearms training, you know, active-shooter 
training, the screening, things like that for the contracting 
side of FPS, not the actual Federal officers, but the 
contractors, which make up a huge amount of them. Has there 
been steps taken to improve that training and make sure that 
they are on par with your officers?
    Mr. Patterson. Absolutely, sir. We have a very aggressive 
training program in place today, and a very aggressive 
oversight program that we have today, where we are following 
the training of all of our PSOs. We have created two 
initiatives: One is called the post tracking system, and the 
other is a training system to where we can, day-to-day, collect 
all of the training data and requirements for all of our PSOs, 
so we have an up-to-date understanding of where they are, and 
know the training that they have is up to date.
    Mr. Crenshaw. Thank you very much.
    Ms. Torres Small. The Chair will now recognize other 
Members for questions they may wish to ask the witnesses.
    In accordance with our committee rules, I will recognize 
Members who are present at the start of the hearing based on 
seniority on the committee, alternating between Majority and 
Minority. Those Members coming in later will be recognized in 
the order of their arrival.
    The Chair recognizes, for 5 minutes, the gentlewoman from 
Nevada, Ms. Tyson--I am sorry--Titus.
    Ms. Titus. Thank you.
    Before I ask my question, I wanted to know if you wanted to 
add something to the Chairman's question about the incentive 
for recruiting. You kind-of got cut off there.
    Mr. Patterson. Yes, ma'am. Relative to--I think the 
question was, our folks don't receive law enforcement 
retirement benefits, and it does have an impact because what we 
do, we have a very robust and aggressive training program, and 
we train our folks to a very high standard. Unfortunately, once 
we bring them on and they recognize that they do not qualify, 
don't have the same retirement system as many of their 
contemporaries in other law enforcement agencies, they seek 
employment elsewhere. So, it is one of the things that we 
really look to work with the Department and Congress to help to 
bridge that gap, if you will.
    Ms. Titus. So, it is not just hiring. It is retention----
    Mr. Patterson. Yes, yes.
    Ms. Titus [continuing]. Your expense that trains them and 
then somebody else gets the advantage of it.
    Mr. Patterson. Yes, ma'am, we do a very good job. We don't 
have a lot of problem in hiring. Folks want to come to us. The 
challenge is, is that, once they come and we train them, trying 
to keep them, trying to keep the quality folks because if they 
see opportunities in other places where they can get a 
retirement benefit, law enforcement retirement benefit, then 
many of our folks, or some of our folks will decide that that 
is what they want to do.
    Ms. Titus. Thank you.
    I wanted to ask you about Federal buildings in large urban 
areas, like Las Vegas. Many times, they will house more than 
one agency. One floor, say, is U.S. Attorney's office. Another 
floor will be Social Security. Someplace else will be Health 
and Human Services. You will have jurisdiction over providing 
security for some of those. Maybe the U.S. Marshals have 
jurisdiction in other areas. Could you talk a little bit about 
how your agencies coordinate in a situation like that, and if 
this change--this move will make any difference there?
    Mr. Patterson. Well, to answer your--to answer the last 
part of your question, no, it won't have any impact on it and, 
yes, we work very aggressively. In fact, we have--I have an 
officer or a--one of our agents that is a liaison at the U.S. 
Marshals Service that works these issues every day and, in 
fact, as we speak, myself and my deputy were supposed to be 
sitting before the Judicial Security Committee to talk about 
courthouse security today. We do that every 6 months and just 
to work through those issues of that we may have.
    As it relates to those offices where there are multi-tenant 
facilities, the Marshals and the Federal Protective Service 
will collaborate on who will do what now. As you well know, the 
Marshals are responsible for the protection of the courthouse, 
inside the courthouse, the judges, and that.
    So, quite often, what they will have, they may have the 
responsibility for the inside. We will have the responsibility 
for outside. If it is a multi-tenant facility, quite often what 
they will have is their court security officers posted outside 
of the courthouse; and we may also have Protective Security 
Officers in other floors and other areas within that facility. 
So, that would be a shared responsibility.
    Ms. Titus. OK. Well, so you think that is working well?
    Mr. Patterson. Yes, ma'am, I do.
    Ms. Titus. That is good to hear.
    I know that the Department of Homeland Security is 
responsible for the protection of all the property that is 
owned or occupied by the Federal Government; but right now, you 
have a footprint, or a presence, in about 9,000 of the 400,000-
plus facilities owned by the Government. Do you see that 
expanding under the new organization? Do you want it to expand? 
Are there challenges?
    Mr. Patterson. Well, we have a presence on an interagency 
security committee, which is a group of security folks that 
come from all of the agencies across the Government, and we 
talk about some of the shortfalls in security, and we are in a 
position to provide them with our thoughts on how things could 
be improved. So it is a--it is a--it is an opportunity that we 
get to share some of our experience with those folks.
    So, I think--and our position as the longer that we stay 
with the Department, in the Department, I think we will have an 
opportunity to better impact different agencies that aren't 
part of that GSA footprint.
    Ms. Titus. Well, thank you. Thank you for keeping us all 
safe.
    Mr. Patterson. Yes, ma'am.
    Ms. Titus. We appreciate it.
    I yield back.
    Ms. Torres Small. Thank you, Ms. Titus.
    The Chair recognizes, for 5 minutes, the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Chairwoman. I do not know if my mic 
is on or not. My light is not working, but I think I can be 
heard.
    Sir, Madam, thank you for being here this afternoon to 
speak to us.
    Director, you had stated in your testimony that new 
technologies enhance your ability to protect. They also enhance 
the abilities, those that would do us harm. You are referring 
to emerging--emerging threats regarding cyber threats. Clarify 
what you mean by that, please.
    Mr. Patterson. Well, what I was talking about in that 
specific comment was more so on the unmanned aerial vehicles 
that have--that we are seeing a proliferation of, and looking 
how we might counter that threat. But we are also looking at 
the cyber threat relative to our system----
    Mr. Higgins. Regarding UAVs, before you move on, is your 
agency, department to department, communicating with the next 
generation, training, for instance, with the Secret Service 
regarding UAVs?
    Mr. Patterson. Yes, sir. There is within the Department 
there is a huge collaboration between all of the components top 
look at the threats from UAVs and how they may counter those 
threats from the Secret Service.
    Mr. Higgins. So, you feel confident that FPS is on top of 
emerging threats as we move deeper into the digital age and we 
face our previously unseen threats like UAVs?
    Mr. Patterson. Yes, sir. I think we are moving in that 
direction, yes.
    Mr. Higgins. Keeping that in mind, how involved were you? I 
mean, the critical functions of the Federal Protective Service 
are incredibly important; and thank you all for the service you 
provide, and the men and women that stand behind the badge. It 
is crucial work.
    To what extent were you, as a director, involved in the 
decision to place FPS under the Management Directorate?
    Mr. Patterson. I wasn't involved in the decision, but my 
staff was part of a working group that was involved in making 
recommendations to the Secretary. The two recommendations that 
were made to the Secretary or the Acting Secretary were stand-
alone, and a direct report to the under secretary of 
management.
    Mr. Higgins. As a director, are you comfortable with the 
move?
    Mr. Patterson. Yes, sir, I am.
    Mr. Higgins. It has been stated that there would be a 
potential to improve on areas that have been found, that GAO 
has found to be lacking. Human Capital Management and Financial 
Systems Management, it has been stated by FPS that the move 
under the Management Directorate would help you address that.
    Do you concur with that, that general assessment?
    Mr. Patterson. Yes, sir, I do. I think it gives us an 
opportunity. As I had a commander say, You grow where you plant 
it; and I think what it would allow us to do is to kind-of 
control some of our own destiny as it relates to getting 
control of the operations, or especially our lines of business 
operation within the Federal Protective Service.
    Mr. Higgins. Our goal is to assist regarding what is 
actually needed. We don't--we don't want to invest in people's 
treasure and areas that are already functioning and we as a 
committee, as Congress, we don't want to interfere with the 
boots on the ground and the job that needs to get done. So, but 
we do have to question the wisdom of the decisions that get 
made like this; and it can be very complex. So, thank you for 
your candor.
    I have a cop question for you, Brother.
    FPS employs between 13- and 14,000 private contracted 
security officers called PSOs. Is this correct?
    Mr. Patterson. That is correct, yes, sir.
    Mr. Higgins. Now, I am reading between the lines here. You 
had mentioned training earlier. You used the words ``robust and 
aggressive,'' if I quoted you properly there. You have--your 
law enforcement officers retrieve--receive training at the 
Federal Law Enforcement Training Center, correct?
    Mr. Patterson. Yes, sir, they do.
    Mr. Higgins. The FLETC certification level block of 
instruction is--I am presuming there is a certificate that 
comes with this training. Is this different? Is there an 
instructor level block of instruction for your private 
contractors, because it stated that FLETC trains instructors 
who are then able to provide training to their employees which 
is most of your force. So, please explain the difference, and 
hopefully, Madam Chairwoman will allow you to answer the 
question between the instructions that your officers receive 
and the instruction--the instructor level block of instruction 
that these private contractors receive.
    Mr. Patterson. Yes, sir. Well, our law enforcement folks or 
our Federal folks are law enforcement officers, OK, trained law 
enforcement officers. Our PSOs are not. OK. They are our--each 
one is licensed by the State and we have--and we certify that 
they are--that they have undergone certain training.
    Mr. Higgins. But they are getting training from someone 
that has been trained to train them?
    Mr. Patterson. Yes, sir.
    Mr. Higgins. They are not training--they are not getting 
their training at FLETC, correct?
    Mr. Patterson. I am sorry--no, they are not getting their 
training at the Federal Law Enforcement Training Center, no, 
sir. What we have is a program called Train-the-Trainer, to 
where there are certain aspects of our training.
    Ms. Torres Small. I apologize. The gentleman's time has 
expired. We are going to do a quick round. So, I--can I--I will 
take back myself.
    Mr. Higgins. I will defer to the next round.
    Thank you, Madam Chairwoman. It is an important question we 
need to dig into.
    Ms. Torres Small. So I will recognize myself now for 
questions and ask you to finish your answer, if you don't mind.
    Mr. Patterson. I am sorry, ma'am.
    Ms. Torres Small. Would you mind finishing your answer?
    Mr. Patterson. Oh, yes, yes. So, at the Federal Law 
Enforcement Training, we train all our Federal law enforcement 
folks, and our PSOs are not trained at the Federal Law 
Enforcement Center. However, we do train some what we call some 
contractors in a term we call Train-the-Trainer. So, what they 
do is we train them in certain aspects of their job in 
detecting, you know, certain items for bomb-making materials 
and things of that nature so that they have a better 
proficiency of understanding what we want and what they need to 
do.
    The other training that they receive is in life-saving 
training, and other specific training that is required by the 
State in order to perform their function as a----
    Mr. Higgins. Does that include----
    Ms. Torres Small. I am sorry. I am sorry.
    Mr. Higgins [continuing]. Active-shooter training?
    Ms. Torres Small. I apologize. Actually I just wanted him 
to finish that question and then I have got a few more to 
answer--to ask. I apologize.
    Thank you, Mr. Patterson.
    Just could you briefly describe FPS's new fee model and why 
it is needed?
    Mr. Patterson. Yes. Well, clearly it is needed because one 
of the challenges that we have had, when we came from the 
General Services Administration over to the Department, the way 
that we collect our--you know, we are fully fee-funded. So, 
there is no appropriation that is allocated to us. So, we 
collect our monies through square footage that we protect.
    Unfortunately for us, the GSA is under mandate to reduce 
the number of leased space and owned space. So every year, we 
face a dilemma that they are reducing the square footage. So, 
we are collecting fewer and fewer funds against that square 
footage. So, it makes it very difficult for us to move forward 
and grow and progress like we would need to.
    Ms. Torres Small. Thank you, Mr. Patterson.
    Do you anticipate this new fee structure to eliminate the 
potential for budget shortfalls?
    Mr. Patterson. Well, I don't know that it will eliminate 
it, but it will help to mitigate it and what that will do is 
that now, instead of--it is a risk-based model that looks at 
the three basic things: Calls for service, the number of calls 
we have to a particular facility; the number of posts; and 
also, the incidents that we respond to. So, there is an 
algorithm that is brought forward that we take forward to each 
one of our customers, if you will, and we explain to them this 
is how they will be charged and this is--and every 3 years, we 
go through that process and update that as required.
    Ms. Torres Small. Do you think the incident-based model has 
any potential for deterring contractors from notifying FPS 
about the threats?
    Mr. Patterson. No, because on--I think that--I am sorry. Do 
you think the contract----
    Ms. Torres Small. I am sorry. Not the contractors, the 
entities you are serving.
    Mr. Patterson. No, I think that--no, because most of the 
reporting comes through our PSOs. So, I don't think that there 
is going to be any reduction. We have had very good 
conversations with all of our customers as it relates--some 
have increases in their--have increases in their fees; others 
have a reduction in their fees based on that algorithm and 
those who have had increases understand why that the increase 
exists, and they just want transparency. So, we are going to 
provide that to them; and if there is a conflict, hopefully we 
can work through it.
    Ms. Torres Small. Great.
    Just last question on that, how do you--do you have an 
amount that you currently expected to impact your ability to 
achieve financial solvency?
    Mr. Patterson. I am not sure that I understand your 
question, ma'am.
    Ms. Torres Small. How much do you expect to make more based 
on this new approach compared to the dwindling services that 
you are seeing based on square footage?
    Mr. Patterson. I don't know the exact amount that we are--
of the increase but what we are looking for is a stabilizing, a 
stable, and then working with the Department to look at how we 
might increase those--that figure, but right now, it is just 
stabilizing the baseline is what we are really trying to do 
because with the old model with square footage, we could not 
stabilize the baseline. So as such, we were always having to 
jiggle or re-prioritize the way that we did business.
    Ms. Torres Small. Thank you.
    I will yield the rest of my time.
    Mr. Crenshaw, do you have any questions?
    Mr. Crenshaw. Thank you, Madam Chairwoman. I can follow up 
on a couple of things.
    I do want to dive back into the movement to the Management 
Directorate; and I want to get a better sense for what changes 
you need to make within FPS, what management changes, what 
organizational structural changes you need to make. If there is 
one thing you guys have gotten good at, it is moving 
organizations. So maybe you are used to this by now.
    That was meant to be a joke. So, you can laugh.
    So what do you anticipate, and how do you overcome those 
things?
    Mr. Patterson. I am sorry. I am not sure that I understand 
your question, sir.
    Mr. Crenshaw. When you are moving from one organization to 
another, I imagine you are anticipating some management 
obstacles, right? You have to move folks around, change some 
pay. I don't know. I don't know.
    Mr. Patterson. Yes.
    Mr. Crenshaw. That--really that is what I am asking. Are 
there issues you are going to have to deal with, and how are 
you going to deal with them?
    Mr. Patterson. Yes, sir. I do not think that--quite 
frankly, there is not going to be a huge impact to it as we 
move from CISA to Management. Once again, it is going to be, 
quite frankly, to the field, there is no change----
    Mr. Crenshaw. OK.
    Mr. Patterson [continuing]. It relates to our field force. 
There is absolutely no change. Where the change is how we 
conduct business at our headquarters, you know, how we go about 
developing our budget, how we go about hiring our forces and so 
forth. That really is, it is kind of the backroom work that 
will move from one element to another element, and what we will 
have to do is get familiar with how Management wants us to, 
more or less, integrate some of our processes in with them 
instead of over at CISA.
    Mr. Crenshaw. OK.
    Mr. Patterson. But with Management, it gives us an 
opportunity at a much higher level now to compete, if you will, 
than being, you know, up under CISA.
    Mr. Crenshaw. Going back to the training aspects and, you 
know, I think my colleague wanted to follow up on something 
about active-shooter training. What does that look like, 
especially for the contracted officers? I imagine that the 
Federal officers probably get a lot of that training at FLETC. 
I have a question about active-shooter training, but not just 
that, but also countersurveillance training and being able to 
identify surveillance, identify counterintelligence issues, you 
know, things you are well-versed in.
    Mr. Patterson. Yes, sir. We have a really a robust program 
for our Federal law enforcement folks on countersurveillance 
training, as well as active-shooter training; and, however, it 
is a different story for our Protective Security Officers. 
Because, No. 1, they are licensed by the State; and, No. 2, 
because they are not law enforcement, what we do is we train 
them to understanding what a--what it is for an active-shooter 
situation, but we cannot train them to respond to an active-
shooter situation, because they are not law enforcement, and 
most States, all the States will not allow them to respond to 
those incidents. So, they are not provided that level of 
training that our Federal law enforcement folks would have.
    Now, they can respond to a situation if it confronts them, 
but they cannot go and actively pursue an active shooter in a 
facility that they protect.
    Mr. Crenshaw. They are legally prevented from----
    Mr. Patterson. Yes.
    Mr. Crenshaw [continuing]. Are they armed?
    Mr. Patterson. By the State. Because they are licensed by 
the State, the States don't allow them to go do that because 
they are not law enforcement.
    Mr. Crenshaw. On the countersurveillance side, I mean, can 
we at least train them? This doesn't take long, as you know. It 
doesn't take long to train somebody in what to look for for 
countersurveillance.
    Mr. Patterson. Right. Yes, well, they are trained in the 
counter--they are trained in looking for the anomalies outside 
of their facilities, yes, sir.
    Mr. Crenshaw. OK.
    Mr. Patterson. We don't necessarily call them counters, but 
they are trained to look for those things that are out of the 
normal.
    Mr. Crenshaw. There is a reporting process for them to----
    Mr. Patterson. Yes, they immediately call 1 of our 4 
MegaCenters that they have a--there is a possible problem and 
we document that daily, you know, whether it be from a backpack 
or a vehicle that has been sitting too long in a no-parking 
area, whatever.
    Mr. Crenshaw. OK. I have no further questions.
    Thank you, Madam Chair.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
Nevada, Ms. Titus.
    Ms. Titus. So, when you say they are not law enforcement, 
do you mean that they are not post-trained? Is that the right 
term that they use as the State level?
    Mr. Patterson. I am not sure about that term, ma'am. I just 
know that they are not certified law enforcement officers for 
the State.
    Ms. Titus. OK.
    Mr. Patterson. They are not recognized as such. So, because 
of that, there are certain things that they are limited--that 
we are limited to do within the State. So----
    Ms. Titus. I think it is called post-training in Nevada, 
but I don't know.
    I just wanted to ask you. Have you had your employees at 
the table or the unions that represent them at the table, as 
you have discussed all this transition and the timing of it and 
how you are going to deal with it?
    Mr. Patterson. Yes, ma'am. We have kept our employees and 
the union up-to-date on every aspect of this--of the working 
group as it moved forward through that, so that everybody, we--
you know, it is complete transparency. We didn't want anybody 
not to understand what was going on, and because it is really 
important for our--especially our employees to be part of this 
in the buy-in to what is happening.
    So, to my knowledge, we have had great support by all of 
our employees. They just--I think what they really want is they 
want this to be done. There was an apprehension about, you 
know, where we going to go, because there was some discussion 
at one point that maybe we were going to leave the Department 
and go back to GSA; and that was a troubling discussion, you 
know, or troubling thought, quite frankly. So, we did not want 
to go back to GSA; and I don't think any of our folks really 
wanted to do that.
    Ms. Titus. That is all I have. Thank you.
    I yield back.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Director Patterson.
    Mr. Patterson. Yes, sir.
    Mr. Higgins. What State law prevents a legally armed or 
unarmed security guard from responding to a threat within their 
given perimeter? I am not familiar with any State law of that.
    Mr. Patterson. That is the guidance that I was given by our 
general counsel, sir, that our folks, because they are 
licensed----
    Mr. Higgins. Can your office produce that? I would be--I 
would be----
    Mr. Patterson. Yes, sir.
    Mr. Higgins [continuing]. Quite surprised to know of any 
law that exists within the sovereign States of these United 
States that would stop an armed or unarmed security guard from 
responding to a threat within their given perimeter, or any 
citizen. Teachers respond within a school shooting. Any--many 
civilians, off-duty or retired officers, have responded at 
active shooters. I find it difficult to believe your statement 
was----
    Brother, I love you. Thank you for your service, and I am a 
badge with you, OK?
    Mr. Patterson. Right.
    Mr. Higgins. But what you have stated does not jive with 
what I believe to be true. I don't believe there is a State law 
that would--that would deny an armed or unarmed security guard 
from responding to a threat within their given perimeter.
    Mr. Patterson. Yes, sir. They can, again, if the individual 
is confronted with a situation, they can respond.
    Mr. Higgins. I heard you say that.
    Mr. Patterson. Yes, sir.
    Mr. Higgins. But what does that mean, confronted? If it 
happens within the perimeter and you hear the shots, what State 
law would prevent any citizen of these United States or the 
sovereign States thereof? What State law would prevent any 
citizen from responding? What law would stop any man or woman 
present here today from responding to an active shooter or a 
threat within this room?
    Mr. Patterson. Yes, I am just giving you feedback on what 
we received----
    Mr. Higgins. I believe your counsel to be wrong.
    Mr. Patterson [continuing]. As we--as a result of our 
contract, as we contract----
    Mr. Higgins. A contract perhaps, and perhaps insurance 
rate, but not a State law. We would--I would like the committee 
to receive some clarification on that.
    Mr. Patterson. OK.
    Mr. Higgins. Our concern, as we move deeper into the 
incredible bureaucracy of this bizarre realm of Washington, DC, 
what we want to do is make things better and more streamlined, 
not more complicated.
    So, definitely, we want the law enforcement officers, 
private subcontractors, or professionally-trained Federal law 
enforcement officers, we certainly want them to respond to a 
threat within the given perimeters that they are--that they are 
charged to guard at our Federal locations and properties.
    Mr. Patterson. We absolutely agree with you, sir. I mean, I 
don't disagree. I am just providing you the guidance that I 
have been provided as a result of the contracting action of a 
vendor who provides----
    Mr. Higgins. We would like to help you, good, sir. You are 
a good man, obviously, a beautiful spirit, great courage. Thank 
you for appearing before us. Please have your staff work with 
our committee staff.
    Madam Chairwoman, let us get to the bottom of that. Can we, 
please?
    I yield, and I thank the gentleman.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
California, Ms. Barragan.
    Ms. Barragan. Thank you.
    Mr. Patterson, this committee has expressed concerns about 
the significant number of top management vacancies at DHS. 
Given there is currently no under secretary for management 
leading the Management Directorate, how will you make sure that 
you get top leadership support for FPS?
    Mr. Patterson. Yes, ma'am. We will continue to work with 
the leadership that is there and do our best with that.
    Ms. Barragan. You know, when I think of law enforcement 
careers, I think of community members who are the core of our 
middle class. In older generations, a law enforcement job meant 
health insurance, a pension, and community. Look, I am worried 
that largely contract force means that FPS employees aren't 
getting all of their benefits.
    Does a large--does a contract force make sense when we are 
trying to build domestic middle class jobs?
    Mr. Patterson. I believe it does. It gives us quite a bit 
of flexibility in our ability; but also, you know, it is 
important that we provide our own law enforcement folks the 
benefits that I believe that they should have as well.
    Ms. Barragan. Is there anything else that you haven't been 
asked that you want to share with us?
    Mr. Patterson. No, ma'am. I think that is it.
    Ms. Barragan. OK. I yield back.
    Ms. Torres Small. Thank you. The Chair--I think in that 
case, I think we may be reaching a conclusion here. So, in that 
case, thank you all so much for coming.
    I would like to thank the witnesses for their valuable 
testimony and the Members for their questions.
    So, I just want to recognize, for the record, Mr. Taylor, 
the gentleman from Texas.
    Do you have any questions to ask?
    Mr. Taylor. [Nonverbal response.]
    Ms. Torres Small. Thank you. Sorry about that.
    I thank the witnesses for their valuable testimony and the 
Members of the--and the Members for their questions. The 
Members of the subcommittee may have additional questions for 
the witnesses, and we ask that you respond expeditiously in 
writing to those questions. Without objection, the committee 
record shall be kept open for 10 days.
    Having no further business, the committee stands adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions for L. Eric Patterson From Chairwoman Xochitl Torres Small
    Question 1. How much more revenue is FPS's new fee model expected 
to generate annually?
    Answer. Response was not received at the time of publication.
    Question 2. Will the additional revenue be sufficient to cover all 
of FPS's expenses?
    Answer. Response was not received at the time of publication.
        Question for L. Eric Patterson From Honorable Dina Titus
    Question. What, if any, bearing will the transition to the 
Management Directorate have on the union contract with FPS National 
Local 918 or existing protections for current bargaining unit 
employees?
    Answer. Response was not received at the time of publication.
    Questions for L. Eric Patterson From Chairman Bennie G. Thompson
    Question 1. Is conversion of FPS uniformed officers to the law 
enforcement retirement system being discussed with DHS as part of the 
transition planning?
    Answer. Response was not received at the time of publication.
    Question 2. In the past there have been discussions around 
potentially moving away from the contract guard program. Are there 
plans to revisit this discussion of hiring more Federal officers to 
reduce FPS' reliance on contract guards?
    Answer. Response was not received at the time of publication.
    Question 3. What has been the result of any discussions between FPS 
and the Management Directorate about whether to request Congressional 
appropriations to assist with FPS's transition from the Cybersecurity 
and Infrastructure Security Agency (CISA)?
    Answer. Response was not received at the time of publication.
    Question 4. Please provide a list of all Federal departments or 
agencies that owe FPS back fees along with the amount owed. What 
efforts are being made to recover these fees?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
